October 13, 2009

PRANAB M. SHAH
VICE PRESIDENT AND MANAGING DIRECTOR, GLOBAL BUSINESS

RUBEN M. GONZALES
ACTING MANAGER, LOS ANGELES INTERNATIONAL SERVICE CENTER

SUBJECT: Audit Report – Los Angeles International Service Center – Inbound
         International Mail (Report Number FT-AR-10-001)

This report presents issues concerning inbound international mail volumes at the
Los Angeles International Service Center (ISC). We identified these issues during our
audit of the fiscal year (FY) 2009 U.S. Postal Service Financial Statements – St. Louis
Information Technology and Accounting Service Center (IT/ASC) (Project Number
09BM004FT001). This audit addresses the financial risk associated with not accurately
recording revenue. See Appendix A for additional information about this audit.

Conclusion

Volume data used to bill foreign postal administrations (FPA) for inbound international
letter post, Parcel Post®, and Express Mail® service was not always accurate and
properly supported.1 These errors resulted from both manual and system issues. As a
result, the Postal Service either understated or overstated its billings to foreign
countries. We estimate the Postal Service underbilled foreign countries nearly
$163,000 for the errors related to letter post Registered Mail and missing Parcel Post
dispatches for the 4 month period from October 1, 2008, through January 31, 2009. We
did not determine monetary impact for other errors found primarily due to limited source
documentation available to make the calculation. However, the Postal Service could
incur administrative costs to resolve discrepancies with FPAs related to the overstated
billings. In addition, the errors could also delay the FPA’s acceptance of the billing and,
therefore, delay revenues for the Postal Service.




1
    Parcel Post and Express Mail are trademarks of the Postal Service.
Los Angeles International Service Center –                                                           FT-AR-10-001
 Inbound International Mail


Inbound International Billing Data

We traced random samples of billing data2 to 155 letter post, 130 Parcel Post, and
85 Express Mail source billing documents (dispatches) and identified 56 errors,
49 errors, and 54 errors, respectively. Specifically, proper source documentation was
not always available, and weights and piece counts were not always correct. The
projected error rates for these samples are 29.78 percent, 30.74 percent, and
54.2 percent, respectively. See Appendix C for our statistical analysis of the three types
of mail. We also judgmentally traced data from 20 source billing documents to billing
data for each mail type and found nine errors with letter post, two errors with Parcel
Post, and 12 errors with Express Mail.

These errors resulted from both manual and system issues. Manual issues generally
involved documentation not received or lost; policies and procedures not in place, not
adequately communicated, or not followed correctly or timely; and item count data not
correct when manual barcodes are generated. An overall assessment of the manual
causes, with letter post in particular, suggests a need for training, supervisory oversight,
and documented policies and procedures.

In addition to manual causes, International Reconciliation System issues caused errors
in Parcel Post and Express Mail weights and pieces because it did not reconcile Parcel
Post or Express Mail data for billing purposes or summarize Express Mail item count
data used for billing purposes. These system issues were previously identified by the
Global Business Directorate, the St. Louis Information Business System Solutions
Center (IBSSC), and the International Accounting Branch (IAB). Management initiated
system change requests (SCR) in August 2008 to correct these issues. However,
based on our audit findings, we determined these SCRs are still outstanding 1 year
later.

While Los Angeles ISC personnel were not aware of any existing documented
procedures, we recently became aware of draft procedures3 that require xxxxxx to
validate system data sources, record exceptions, and timely process paperwork.

As a result, the Postal Service did not accurately bill foreign countries for processing
and delivering inbound international mail. In addition, based on our analysis of the
inbound international mail dispatches at the Los Angeles ISC, we determined the Postal
Service underbilled foreign countries $80,804 for Registered Mail™ service and an
estimated $81,777 for Parcel Post mail service for the period reviewed. We did not
determine monetary impact for other errors found primarily due to limited source
documentation available to make the calculation. We consider the $80,804 in monetary
impact as recoverable revenue loss, and $81,777 as unrecoverable revenue loss. The
Postal Service could incur administrative costs to resolve discrepancies with FPAs
2
  The billing data reviewed originated from the Global Business System (GBS) and resides in the International Web
System (IWS).
3
  International Service Center Standard Record Unit Procedures – Draft, dated January 6, 2009.




                                                         2
Los Angeles International Service Center –                                     FT-AR-10-001
 Inbound International Mail


related to the overstated billings. In addition, the errors could also delay the FPA’s
acceptance of the billing and, therefore, delay revenues for the Postal Service. See
Appendix B for our detailed analysis of this topic.

Audit Comment

The Postal Service plans to implement a new international system — the Foreign Postal
Settlement (FPS) system — to replace the existing Settlement Management System
and IWS at the IAB. This new system will receive volume data from the International
Reconciliation System and use it to determine settlement amounts between the Postal
Service and the FPAs. The Postal Service plans to implement the new system
January 1, 2010. In anticipation of this, the U.S. Postal Service Office of Inspector
General (OIG) believes it is increasingly important to address issues within the GBS so
they do not have an adverse effect on the data integrity of the new FPS system.

We recommend the Vice President and Managing Director, Global Business:

1. Finalize and communicate International Service Center Standard Record Unit
   Procedures for international records unit personnel to follow when validating
   dispatches in the International Reconciliation System.

Management’s Comments

Management agreed with the finding and recommendation 1 and stated they updated
applicable standard operating procedures addressing billing of inbound international
mail and communicated them to relevant parties on September 28, 2009. See
Appendix F for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
the corrective actions should resolve the issue identified.

Management subsequently provided updated revised standard operating procedures
finalized on September 29, 2009. Our review of these documents revealed they
adequately address our concerns. Therefore, this recommendation can be closed.

We recommend the Vice President and Managing Director, Global Business:

2. Develop system edit(s) that will capture Registered Mail piece count data for billing.

3. Develop and implement formal policies and procedures to ensure Express Mail
   manifests are obtained and retained at the International Record Unit.




                                             3
Los Angeles International Service Center –                                                            FT-AR-10-001
 Inbound International Mail


Management’s Comments

Management agreed with the findings and recommendations 2 and 3 and stated that
Registered Mail piece counts are currently captured in GBS when sent in the pre-advise
message. They also stated they are making changes to capture Express Mail Service
(EMS) item counts for Express Mail dispatches. They stated these changes were ready
for system testing beginning October 1, 2009, but stated the deployment date depends
on FPS implementation.4 Management also finalized and communicated standard
operating procedures related to obtaining and retaining Express Mail manifests at the
ISC on September 29, 2009.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
the corrective actions should resolve the issues identified. Regarding the development
of system edits to capture Registered Mail piece count data, management stated they
are making changes to EMS item counts, but our issue is with letter post Registered
Mail piece count. We will follow-up with management to ensure changes include
Registered Mail piece count as part of our ongoing financial statement audit work.

We recommend the Vice President and Managing Director, Global Business:

4. Expedite approved system change requests to enable the International
   Reconciliation System to reconcile data and provide valid dispatch-level data for
   billing.

Management’s Comments

Management agreed with the finding and recommendation 4 and stated they are
including this in the GBS system as part of the IAB/FPS critical change request. They
stated this change was ready for system testing beginning October 1, 2009; however,
the deployment date depends on FPS implementation.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
the corrective actions should resolve the issue identified.

We recommend the Vice President and Managing Director, Global Business:

5. Research the system issue regarding missing dispatches and implement appropriate
   corrective action to resolve it.


4
  Management’s comments do not indicate a specific target date for completion for this action. However, as stated in
the Audit Comment section of our report, the FPS is scheduled to be implemented January 1, 2010.




                                                         4
Los Angeles International Service Center –                                      FT-AR-10-001
 Inbound International Mail


Management’s Comments

Management agreed with the finding and recommendation 5. Management stated they
completed research and GBS currently provides International Records Units with the
ability to estimate for missing dispatches based on same-period-last-year data.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
the corrective actions should resolve the issues identified.

We recommend the Acting Manager, Los Angeles International Service Center:

6. Establish a process to ensure all International Records Unit xxxxxx attend
   established training.

7. Establish a process to regularly monitor International Records Unit xxxxxxx work to
   ensure that they timely and properly process dispatches in the International
   Reconciliation System.

8. Communicate to all applicable employees (International Records Unit and plant
   personnel) the importance of obtaining and maintaining supporting documentation
   for billing inbound international mail.

9. Implement a process to ensure item counts are captured for all receptacles with a
   manually generated receptacle barcode.
 
Management’s Comments

Management agreed with our findings and recommendations 6 through 9. Management
confirmed they provided training to all International Records Unit (IRU) xxxxxx in May
2007, January 2008, and July 2009, and have scheduled additional training for IRU
xxxxxx to complete by October 5, 2009. Regarding IRU personnel monitoring, currently
each employee submits a daily and weekly count sheet and managers do random
checks for compliance. Also, management is in the process of implementing an
additional tracking system to ensure compliance.

Beginning September 25, 2009, management began providing daily and weekly talks
stressing the importance of obtaining and maintaining supporting documentation for
billing inbound international mail. In addition, management plans to implement standard
operating procedures for the Receipt Verification System unit and require submission of
manually generated receptacle information to IRUs on a daily basis.




                                             5
Los Angeles International Service Center –                                   FT-AR-10-001
 Inbound International Mail


Evaluation of Management’s Comments

The OIG considers management’s comments responsive to these recommendations
and the corrective actions should resolve the issues identified in the report.
Management did not provide an implementation date for the standard operating
procedures for the Receipt Verification System unit or submission of manually
generated receptacle information to IRUs on a daily basis. Accordingly, we will monitor
these areas as part of our annual financial statement audit work.

The OIG considers recommendations 1 and 4 significant, and significant
recommendations require OIG concurrence before closure. Recommendation 1 can be
closed because management has already addressed the issue to our satisfaction.
However, the OIG requests written confirmation when corrective actions addressing
recommendation 4 are completed. Recommendation 4 should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, Director,
Financial Reporting, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Joseph Corbett
    Steven J. Forte
    Susan M. Brownell
    Vincent H. DeVito, Jr.
    John T. Edgar
    Constance M. Beatty-Griffith
    Steven R. Phelps
    Bill Harris




                                             6
Los Angeles International Service Center –                                                              FT-AR-10-001
 Inbound International Mail


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Inbound international mail or dispatch is foreign-originating mail destined for delivery in
the U.S.5 FPAs pay the Postal Service for sorting and dispatching inbound international
mail at the ISCs. Currently, five ISCs in New York, Miami, Chicago, Los Angeles, and
San Francisco process international mail. In FY 2008, international revenue for inbound
mail was approximately $268 million.

The Postal Service developed the GBS to assist in streamlining the processing of
international mail. The GBS is the overall framework which is comprised of the Receipt
System, the Dispatch System, and the International Reconciliation System.

        The Receipt System captures the initial scan of international mail at the inbound
         receiving terminals.
        The Dispatch System captures the scan of outbound mail.
        The International Reconciliation System was developed for the IRU to capture
         and validate dispatch records for billing. IRU personnel use the International
         Reconciliation System to track international mail, identify issues, and reconcile
         discrepancies.

A mail dispatch may contain more than one receptacle,6 and each receptacle has an
attached label generated by the country of origin. When inbound international mail
arrives at the Los Angeles ISC, it is brought to the receiving unit where ISC personnel
scan the label through the Receipt System to capture receptacle information. ISC
personnel also collect the billing documents7 attached to or enclosed with the
receptacles. These billing documents are then delivered to the IRU for processing.

The IRU’s primary role is to validate8 the billing dispatch records for letter post and
Parcel Post in the International Reconciliation System before transmitting the data to the
IAB for settlement. When IRU xxxxxx go through the validation process, they ensure
the scanned data captured via the Receipt System, the electronic data interchange
(EDI),9 and the billing document(s) match. When discrepancies arise, or when there is
no record of the dispatch in the International Reconciliation System, the xxxxxx enter
the data from the billing document(s) into the system. In addition, IRU xxxxxx

5
  In FY 2008, international revenue for inbound mail was approximately $268 million.
6
  Receptacles include trays, sacks, and boxes that usually contain more than one piece of mail.
7
  Billing documents include Forms CN31 – Letter Bills, Forms CP86 or CP87 – Parcel Bills, Express Mail manifests,
and others. They come from the country of origin.
8
  The validation process is only required for letter post mail and Parcel Post mail. Data for Express Mail Service does
not require manual validation as individual Express Mail pieces are scanned and captured via the Receipt System.
9
  EDI countries provide electronic data to the Postal Service before mail arrives at the ISCs. EDI contains dispatch
information, including dispatch date, and is pre-populated into the Receipt System. When ISC personnel scan the
EDI mail receptacles through the Receipt System, the scan retrieves the EDI data and associates the receptacle to
the EDI dispatch date.




                                                           7
Los Angeles International Service Center –                                                               FT-AR-10-001
 Inbound International Mail


communicate with FPAs to reconcile irregularities or to request billing documents that
are missing.

The data from the International Reconciliation System is transferred to the IWS on a
daily basis for billing purposes.10 Inbound international mail is billed by dispatch.
Specifically, letter post dispatches are billed based on dispatch weight and the weight
and piece count of any additional letter post category, such as International Business
Reply Service (IBRS) and Registered Mail. Parcel Post and Express Mail dispatches
are billed based on dispatch weight and piece count.

IAB personnel enter letter post, Parcel Post, and Express Mail rates — as published by
the Universal Postal Union (UPU) and bilateral agreements — into the IWS. On a
quarterly and yearly basis, the IAB submits a request to the Eagan IT/ASC to generate,
print, and mail billing reports11 to the IAB. Upon receiving the reports, the IAB splits
them into individual billing statements and mails them to the FPAs.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this portion of the audit was to determine whether volume data12 used
to bill FPAs for inbound international mail was accurate and properly supported. We
selected the Los Angeles ISC based on the length of time since our last visit to this site,
which was in FY 2002.

To accomplish our objective, we traced billing data, originating from the GBS and
residing in IWS, to inbound international letter post, Parcel Post, and Express Mail
source documents. We used unrestricted random samples of 155, 130, and 85
dispatches, respectively. The universe of transactions for all mail types was from
October 1, 2008, through January 31, 2009.13 See Appendix C for our statistical
sampling and projections of the three types of mail.

In addition, we judgmentally selected 20 source documents for each type of mail, with
dispatch dates between October and December 2008, which we traced to billing data,
originating from GBS and residing in IWS. Based on the results of this test, we
judgmentally expanded our review to include all Parcel Post billing data for the
Los Angeles ISC from October 1 through December 31, 2008.

We conducted this audit from March through October 2009 in accordance with generally
accepted government auditing standards and included such tests of internal controls as

10
   The International Reconciliation System automatically transfers data to the St. Louis IAB and St. Louis IBSSC. The
IBSSC runs edit checks against the data and then loads it into databases, which feed into the IWS.
11
   The billing reports are generated separately for each type of mail (letter post, Parcel Post, and Express Mail). They
contain individual billing statements for all FPAs that have inbound mail activities during the billing period.
12
   International mail volumes consist of piece count and gross weight.
13
   We excluded Canada dispatches in the letter post, Parcel Post, and Express Mail universes. We also excluded
dispatches from Pay-for-Performance countries from the Express Mail universe. These countries are billed using
different processes.




                                                           8
Los Angeles International Service Center –                                                       FT-AR-10-001
 Inbound International Mail


were considered necessary under the circumstances. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusion based on our audit objective. We interviewed personnel from the Global
Business Directorate, the Los Angeles ISC, the St. Louis IBSSC, and the St. Louis IAB.
We discussed our observations and conclusions with management officials on July 31
and August 4, 2009, and included their comments where appropriate.

We used computer-generated data from GBS and IWS. We performed specific internal
control and transaction tests on these applications to include tracing selected
information on inbound international mail volumes to supporting source documents. We
relied on the data in these applications to develop our findings.

PRIOR AUDIT COVERAGE


                                             Final Report       Monetary
     Report Title     Report Number                                                   Report Results14
                                                 Date            Impact

J.T. Weeker          FT-AR-06-013        March 22, 2006         $147,729       We identified a high number of
Chicago ISC –                                                                  discrepancies between
Inbound                                                                        supporting documents and
International Mail                                                             billing data for Express Mail,
                                                                               upgraded Parcel, and Parcel
                                                                               Post.
San Francisco        FT-AR-07-012        March 30, 2007         $922,478       Personnel did not timely enter
ISC – Inbound                                                                  letter post documents into the
International Mail                                                             system and did not retain
                                                                               Express Mail documentation as
                                                                               required. We also identified a
                                                                               high number of discrepancies
                                                                               between supporting documents
                                                                               and billing data.
Interim Audit        FT-AR-08-005        January 24, 2008    $13,700,604       We identified a high number of
Report – New                                                                   discrepancies between
York ISC –                                                                     supporting documents and
Inbound                                                                        billing data for Express Mail and
International Mail                                                             letter post mail.
Interim Audit        FT-AR-08-012        September 3,        $2,084,620        We determined that manually
Report – Miami                           2008                                  entered dispatches for inbound
ISC – Inbound                                                                  international Express Mail were
International Mail                                                             not always billed to the FPAs.




14
  Management agreed with all report recommendations. Note that there were no recommendations in the Miami ISC
report since management took corrective action during the audit.




                                                       9
Los Angeles International Service Center –                                                        FT-AR-10-001
 Inbound International Mail


                                APPENDIX B: DETAILED ANALYSIS

Volume data used to bill FPAs for inbound international letter post, Parcel Post®, and
Express Mail® service was not always accurate and properly supported. Specifically,
proper source documentation was not always available, and weights and piece counts
were not always correct. These errors resulted from both manual and system issues.
Manual causes are shown in the following table:

        Inbound International Mail Conditions and Associated Manual Causes

                                                                        Conditions
                                                               Registered                        Weight
                                         Proper Source            Mail™     IBRS Weights and   and/or Piece
                    Causes               Documentation         Piece Count      Counts Not      Count Not
                   (Manual)               Not Available        Not Correct       Correct         Correct
Los Angeles ISC personnel either did
not receive documentation from the
                                             LP/PP
foreign country or lost documentation
during the recent ISC moves.
Policies or procedures were not in
                                              EM
place.
IRU xxxxxx were not aware of existing
                                                                   LP
documented policies/procedures.
Los Angeles IRU xxxxxx did not
always perform validation correctly or       LP/PP                 LP             LP              LP/PP
timely, if at all.
Item count data was not captured for
a receptacle when a manual barcode                                                                 EM
was generated.

Legend:
LP = letter post
PP = Parcel Post
EM = Express Mail

In addition to manual causes, system issues caused errors in Parcel Post and Express
Mail weights and pieces. Specifically, the International Reconciliation System did not:

        Reconcile Parcel Post or Express Mail data for billing purposes.
        Summarize Express Mail item count data used for billing purposes.

These system issues were previously identified by the Global Business Directorate, the
St. Louis IBSSC, and the IAB. Management initiated SCRs in August 2008 to correct
these issues. However, based on our audit findings, we determined these SCRs are
still outstanding 1 year later.

While Los Angeles ISC personnel were not aware of any existing documented
procedures, we recently became aware of draft procedures that require inbound mail
entry IRU xxxxxx to verify system data sources (data captured through the Receipt
System or provided electronically through FPAs) against physical dispatch documents




                                                          10
Los Angeles International Service Center –                                         FT-AR-10-001
 Inbound International Mail


to ensure they are consistent. If they are not, the xxxxx must complete validation by
updating the International Reconciliation System records using the dispatch document
in accordance with UPU guidelines. Finally, IRU xxxxxx must process the paperwork as
they receive it so no backlog exists.

As a result, we estimate the Postal Service underbilled foreign countries nearly
$163,000 for international mail service for the period reviewed.

Inbound International Letter Post Billing Data

Volume data used to bill FPAs for inbound international letter post services was not
always accurate or properly supported. We found 56 errors when we traced a randomly
selected sample of billing data to 155 source billing documents (dispatches). We also
found nine errors when we judgmentally traced 20 source billing documents
(dispatches) to the billing data. The most common error was that proper documentation
was not available at the Los Angeles ISC IRUs to support the billing data. Errors from
the random sample, summarized by type, are in the following table:

                                                                         Number of
                               Error Type                                Dispatches
    Proper source documentation not available                                20
    Registered mail piece count not correct                                  16
    Multiple fields of data not correct (i.e., weight, count, IBRS
    weight, IBRS count, and/or Registered mail piece count)                   10
    IBRS weight and IBRS count not correct                                     6
    Weight not correct                                                        4
    Total Errors                                                              56

These errors occurred because:

       Los Angeles ISC personnel either lost letter post source documentation during
        recent Los Angeles ISC Operations and Los Angeles ISC IRU moves, or possibly
        countries did not send the proper supporting documents. In either case, the IRU
        xxxxx did not request the missing documents from the foreign countries of origin.
        We could not determine the effect of these errors on billing because source
        documentation was not available.

       The IRU xxxxx was not aware of the need to manually enter Registered Mail
        piece counts for dispatches containing Registered Mail. In addition, when EDI
        data did not correctly reflect the existence of Registered Mail in the dispatch, the
        International Reconciliation System did not have the capability to identify those
        dispatches containing Registered Mail. As a result, information was not captured
        unless the xxxxx manually entered it into the International Reconciliation System.
        These errors resulted in underbillings.




                                              11
Los Angeles International Service Center –                                     FT-AR-10-001
 Inbound International Mail


       The IRU xxxxx did not always perform required validations. Additionally, the
        xxxxx sometimes created manual dispatches instead of amending existing ones,
        which resulted in duplicate dispatches in the International Reconciliation System.
        These errors resulted in overbillings.

       The IRU xxxxx incorrectly entered IBRS weights and counts into the International
        Reconciliation System, causing IBRS weights to double and IBRS counts to
        increase by the number of bundles (typically one) for billing. These errors
        resulted in overbillings.

       The IRU xxxxx entered incorrect weights during the validation of the dispatch.
        These were minimal weight errors; therefore, there is minimal effect on the
        billing.

The errors identified in our judgmental sample were consistent with those identified
previously.

The majority of the error types we found in our review of inbound letter post mail were
caused by issues pertaining to Los Angeles letter post IRU personnel. An overall
assessment of the manual causes pertaining to letter post mail suggests the need for
training, supervisory oversight, and documented procedures.

During our audit, Los Angeles ISC management initiated immediate corrective action
regarding the missing dispatch documentation by designating responsibility for dispatch
documents to one IRU xxxxx. This individual would ensure source documents are
transferred from the plant to the IRU on a regular basis. The Los Angeles ISC Plant
Manager stated he would contact the New York ISC to gain some insight on best
practices. Furthermore, Los Angeles ISC management will place new emphasis on the
performance of its IRU.

We estimated, based only on a projection of Registered Mail entry errors, the Postal
Service will underbill foreign countries by $80,804. We consider the $80,804 as
monetary impact, recoverable revenue loss. See Appendix D for our calculation of
monetary benefits.

Inbound International Parcel Post Billing Data

Volume data used to bill FPAs for inbound international Parcel Post mail was not always
accurate or properly supported. We found 49 errors when we traced a randomly
selected sample of billing data to 130 source billing documents (dispatches). We also
found two errors when we judgmentally traced 20 source billing documents (dispatches)
to the billing data. Errors from the random sample, summarized by type, are in the
following table:




                                             12
Los Angeles International Service Center –                                                            FT-AR-10-001
 Inbound International Mail



                                                                                           Number of
                            Error Type                                                     Dispatches
     Source documentation not available                                                        35
     Piece count and/or weight not correct                                                     14
     Total Errors                                                                              49

These errors occurred because:

        Similar to the causes for missing letter post source documentation, Los Angeles
         ISC personnel either did not receive documentation from foreign countries of
         origin or lost documentation during the recent ISC move. Additionally, the IRU
         xxxxx did not always request the missing documents from the foreign countries.
         We could not determine the effect of these errors on billing because source
         documentation was not available.

        The IRU xxxxx did not correctly process Parcel Post information in the
         International Reconciliation System. Specifically, the xxxxx entered incorrect
         data into the system for two items, validated incorrect data for two additional
         items, and created a new dispatch instead of validating the one already captured
         in the International Reconciliation System for two more items. Based on our
         observations and discussions with Los Angeles IRU personnel, we noted these
         issues mainly stemmed from management not holding the Parcel Post xxxxx
         accountable for the workload and attending all the basic training provided. These
         errors resulted in overbillings.

        The International Reconciliation System did not have the capability to reconcile
         data from various sources to generate a valid set of data for billing, which caused
         incorrect data used in the billing for five items. These errors resulted in
         overbillings.

        We could not clearly determine the cause of the error for three items, but we
         believe the error is due to a combination of both manual and system issues
         because the billing data does not match the source documentation (manifest).

Regarding the two errors from our judgmental sample, one dispatch did not account for
returned mail items.15 The other dispatch could not be found in the billing data, so the
FPA was not billed. The missing dispatch error was caused by a combination of manual
and system issues. Specifically, the IRU xxxxx did not validate this dispatch, dated
October 2008, until May 21, 2009. The dispatch had Receipt data with zero piece count
and no EDI data. Because it was not timely validated, it was not included in the original
billing data extracted in March 2009, which was used for this audit. However, even after

15
  Charge for mail items returned to origin country, which would reduce the receivable. In this case, the amount was
nominal.




                                                         13
Los Angeles International Service Center –                                                                FT-AR-10-001
 Inbound International Mail


the validation in May, the dispatch still was not included in the IAB billing statement
issued on June 15, 2009. At this time, we have not been able to identify the specific
system issue that prevented inclusion of the dispatch in the billing statement.

According to St. Louis IAB and IBSSC personnel, GBS personnel are aware of the
International Reconciliation System issues and initiated SCRs in August 2008 to correct
the system issues.16 These SCRs were approved by the St. Louis IAB in October 2008
and by the FPS Information Technology team in March 2009. Although the initial phase
of the SCR process has recently been completed for these SCRs, there are still several
phases yet to be completed with a final estimated completion date of October 1, 2009.

Inbound International Parcel Post Missing Dispatches

We expanded our work to analyze all Los Angeles ISC Parcel Post dispatches that were
missing in the October 1 through December 31, 2008, period based on the billing data
as of May 26, 2009,17 with a subsequent review of the actual IAB billing statement dated
June 15, 2009. Our original analysis of May data showed an estimated 228 dispatches
missing in this period. Subsequent review of the actual IAB billing statement showed:

      79 dispatches were ultimately included in the IAB billing statement, although
       many of them were not validated until late May 2009.

      31 dispatches were not found in the IAB billing statement. However, they may
       not be real missing dispatches since they did not exist in the International
       Reconciliation System.

      118 were valid dispatches18 missing in the billing statement.

Although we noted most of the 118 missing dispatches were not validated timely,19
similar to the error noted above, we continue to believe they were missing due to a
system issue. According to Global Business personnel, this occurred because the
replacement file sent to the IAB did not contain piece or item count. However, at this
time we have not been able to identify the specific system issue that prevented the
dispatches from being included in the replacement file used to generate the billing
statement.

16
   SCRs related to Parcel Post data are SCR 264 and 296. SCR 264 will enable GBS systems (Receipt System,
Dispatch System, and the International Reconciliation System) to validate data prior to transmitting it to the IBSSC to
ensure the IBSSC only receives complete and billable records. SCR 296 will enable the International Reconciliation
System to reconcile different data sources. Specifically, the International Reconciliation System will compare EDI
with Receipt System data and determine if the versions match and whether manual entry is needed to complete the
record.
17
   At the time of our original analysis in May 2009, the IAB billing statement was not yet available; therefore, we used
billing data extracted in May.
18
   These dispatches were in the International Reconciliation System. Most of them had at least two data sources out
of a possible three (EDI data, Receipt System data, and Record Unit data).
19
   Although these 118 missing dispatches were dated between October and December 2008, most of them were not
validated until late May 2009.




                                                           14
Los Angeles International Service Center –                                                          FT-AR-10-001
 Inbound International Mail



We estimated the value of these 118 missing dispatches at $81,777. We consider the
$81,777 as monetary impact, unrecoverable revenue loss. See Appendix E for details
of the calculation of monetary impact.

Inbound International Express Mail Billing Data

Volume data used to bill FPAs for inbound international Express Mail service was not
always accurate or properly supported. We found 54 errors when we traced a randomly
selected sample of billing data to 85 source billing documents (dispatches). We also
found 12 errors when we judgmentally traced 20 source billing documents (dispatches)
to the billing data. Errors from the random sample, summarized by type, are in the
following table:

                                                                                          Number of
                             Error Type                                                   Dispatches
     Proper source documentation not available                                                37
     Piece count not correct                                                                  16
     Weight and piece count not correct                                                       1
     Total Errors                                                                             54

These errors occurred because:

        There were no policies or procedures in place at the IRU to ensure Express Mail
         documents were received for each dispatch.20

        The International Reconciliation System did not provide valid data for Express
         Mail. Specifically, the International Reconciliation System did not have the
         capability to summarize Express Mail data at a dispatch level for billing purposes.
         Therefore, St. Louis IBSSC personnel summarized receptacle data to the
         dispatch level. In addition, similar to Parcel Post, the International Reconciliation
         System did not have the capability to reconcile data from various sources. It
         generated multiple receptacle records for the same receptacle, based on Receipt
         System and EDI data, which caused duplicate piece counts in the billing data
         during the summarization process. These errors resulted in overbillings.

        Piece count information was not captured for a receptacle when a manual
         barcode was generated at the Receipt unit. This error resulted in an underbilling.

We found the errors identified in our judgmental sample were consistent with those
identified previously.

20
  Los Angeles ISC personnel were also not aware that Postal Service policy requires international Express Mail
documentation be retained for 3 years (policy memorandum dated December 22, 2003, Retention of International
Dispatch Documentation).




                                                       15
Los Angeles International Service Center –                                                           FT-AR-10-001
 Inbound International Mail



As a result, the Postal Service did not accurately bill foreign countries for processing
and delivering inbound Express Mail, and the Postal Service may not be able to support
disputed billed amounts because settlement can occur as late as 18 months after
delivery date. Also, when piece counts for dispatches are overstated on billing
statements, FPAs will almost always amend the statements and the Postal Service
generally concurs with the amendments. Finally, overbilling can lead to unnecessary
administrative work and delayed cash flow.

Similar to system issues effecting Parcel Post data, GBS personnel are aware of the
International Reconciliation System issues that affect Express Mail billing data, and they
initiated SCRs in August 2008 to correct the system issues.21 Although the initial phase
of the SCR process has recently been completed for these SCRs, there are still several
phases yet to be completed, with a final estimated completion date of October 1, 2009.




21
   The main SCR related to Express Mail data is SCR 147, which will enable the International Reconciliation System
to provide the IAB with dispatch level information for billing.




                                                        16
Los Angeles International Service Center –                                                              FT-AR-10-001
 Inbound International Mail


         APPENDIX C: STATISTICAL SAMPLING AND PROJECTIONS
 FOR INBOUND INTERNATIONAL LETTER POST, PARCEL POST, AND EXPRESS
                    MAIL AT THE LOS ANGELES ISC

The objective of the audit was to determine whether volume data used to bill FPAs for
inbound international mail is accurate by tracing the billing data to the source
documents at the IRU. In support of this objective, the audit team employed a simple
random sample for all three mail types: letter post (CN31), Parcel Post (CP86 & CP87),
and Express Mail (CN38). The sample design allowed statistical projection of the
number of mail records with errors. We present separate projections for these samples.

The audit universe consisted of 13,895 inbound international mail records processed at
the Los Angeles ISC for the period October 1, 2008, through January 31, 2009. We
used unrestricted random sampling22 of records for all three mail types. We based our
sample sizes on a desired one-tailed23 95 percent confidence level and error rates
observed in prior audit work: the FY 2006 audit at the San Francisco ISC, the FY 2007
audit at the New York ISC, and the FY 2008 audit at the Miami ISC.24 Our sample sizes
for Los Angeles ISC by mail type are shown below:

                                                                                           Lower Bound
                                                         Sample         Number of           Error Rate
                 Mail Type              Universe          Size           Errors            (Percentage)
          Letter Post                    6,937             155             56                  29.78
          Parcel Post                    2,921             130             49                  30.74
          Express Mail                   4,037             85              54                  54.20

Evaluation of Sample – Statistical Projections of the Sample Data

Letter Post
Based on the sample results, we are 95 percent confident the error rate in the
population is at least as great as 29.78 percent.

Parcel Post
Based on the sample results, we are 95 percent confident the error rate in the
population is at least as great as 30.74 percent.

Express Mail
Based on the sample results, we are 95 percent confident the error rate in the
population is at least as great as 54.2 percent.

22
   Unrestricted random sampling is a sampling methodology that gives all possible sample items an equal chance of
being selected.
23
   Under a one-tail confidence interval, either the upper bound or lower bound on the error rate is calculated, but not
both.
24
   San Francisco International Service Center - Inbound International Mail (Report Number FT-AR-07-012, dated
March 30, 2007); New York International Service Center - Inbound International Mail (Report Number FT-AR-08-005,
dated January 24, 2008); and Miami International Service Center - Inbound International Mail (Report Number
FT-AR-08-012, dated September 3, 2008).




                                                          17
Los Angeles International Service Center –                                                            FT-AR-10-001
 Inbound International Mail


          APPENDIX D: CALCULATION OF RECOVERABLE REVENUE LOSS
                    FOR REGISTERED MAIL PIECES COUNT

We used the total Registered Mail piece counts that were in error from our sampled
letter post items for existence testing to determine the monetary impact. We multiplied
the total Registered Mail piece count by 0.5 Special Drawing Rights (SDR)25 to calculate
the total SDR amount. We projected a SDR amount for the entire universe of 6,937
Los Angeles ISC dispatches processed from October 1, 2008, through January 31,
2009. We then used the projected SDR amount and multiplied it by the SDR
conversion rate on May 29, 2009, to calculate the dollar impact amount. As a result, we
calculated it to be $80,804.

We calculated this monetary impact based on an assumption that if not for our audit, the
Registered Mail piece counts would not have been billed, because the IRU xxxxx was
not previously aware that during validation she was required to manually enter the
Registered Mail piece count.


                                 Calculation of Monetary Impact

                    4,455 Total Registered Mail Piece Count in Error
                    X .5 Inbound International SDR for Registered Mail Piece
                 2,227.50 Total SDR Amount

                  52,199 Projected SDR Amount for the Universe
                 X 1.548 SDR Conversion Rate as of 5/29/2009
                 80,804* Total Dollar Impact Amount

              *Rounded




25
  SDR is an international monetary unit, defined as a basket of currencies which today consists of the Euro,
Japanese yen, pound sterling, and U.S. dollar. All transactions between the Postal Service and the FPA are
recorded in the SDR unit before converting to the U.S. dollar. Currently each Registered Mail piece is worth 0.5 SDR.




                                                         18
Los Angeles International Service Center –                                                                FT-AR-10-001
 Inbound International Mail


        APPENDIX E: CALCULATION OF UNRECOVERABLE REVENUE LOSS
                   FOR PARCEL POST MISSING DISPATCHES

We reviewed the Los Angeles ISC Parcel Post billing data for the October through
December 2008 period using data updated as of May 26, 2009,26 and the actual data in
the IAB billing statement, generated on June 15, 2009. The May 2009 billing data
showed 2,573 Los Angeles ISC Parcel Post dispatches existing for this period. We
analyzed the data and found 118 valid dispatches were missing from the IAB billing
statement even though most of them had at least two sources of data in the
International Reconciliation System (EDI data, Receipt data, or IRU data). These were
valid dispatches that were not billed and, therefore, counted as missing dispatches.

We estimated the dollar value of these 118 missing dispatches based on the piece
count and gross weight of the existing dispatches. See the detailed calculation on the
following page.

                                                                       Parcel Air                  Parcel Surface
                         Formulas                                      Dispatches                   Dispatches

 Number of Los Angeles ISC existing dispatches in                         2,173                            293
 the IAB billing statement issued on June 15, 2009
 Number of dispatches that were missing                                     110                              8
 Percent of missing dispatches                                               5.1                           2.7
 Total piece count in the existing dispatches                          101,700                           6,103
 --> Estimate piece count for missing dispatch                           5,148 (5.1%)                      167    (2.7%)
     x Rate per piece (Calendar Year (CY) 2008 rate)                        4.47                          3.66
     = Estimated SDR amount based on piece count                         23,012                        609.88


 Total weight (kilo) in the existing dispatches                          307,342                       31,999
 --> Estimate gross weight for missing dispatch                          15,558 (5.1%)                    874     (2.7%)
    x Rate per kilo (CY 2008 rate)                                         1.84                          1.16
     = Estimated SDR amount based on gross weight                    28,626.79                       1,013.48


 Total SDR amount of missing dispatches                                51,639.17                     1,623.37
    x SDR daily conversion rate on June 15, 2009                        1.53535                       1.53535

                                                         $79,284*                                     $2,493*
 Total dollar amount of all Los Angeles ISC missing dispatches
 from October through December 2008.                                                                 $81,777*
 *Rounded




26
   At the time of our original analysis in May 2009, IAB billing statement was not yet available; therefore, we used
billing data extracted in May.




                                                           19
Los Angeles International Service Center –                  FT-AR-10-001
 Inbound International Mail


                        APPENDIX F: MANAGEMENT’S COMMENTS




                                             20
Los Angeles International Service Center –        FT-AR-10-001
 Inbound International Mail




                                             21
Los Angeles International Service Center –        FT-AR-10-001
 Inbound International Mail




                                             22
Los Angeles International Service Center –        FT-AR-10-001
 Inbound International Mail




                                             23
Los Angeles International Service Center –        FT-AR-10-001
 Inbound International Mail




                                             24
Los Angeles International Service Center –        FT-AR-10-001
 Inbound International Mail




                                             25
Los Angeles International Service Center –        FT-AR-10-001
 Inbound International Mail




                                             26
